     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

March 31, 2011



Report Number: A-06-10-00093

Ms. Julie Weinberg
Acting Division Director
New Mexico Human Services Department
Medical Assistance Division
2025 South Pacheco, Ark Plaza
Santa Fe, NM 87504-2348

Dear Ms. Weinberg:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Deceased Recipients in
New Mexico. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Michelle Richards, Audit Manager, at (214) 767-9202 or through
email at Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-10-00093 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Julie Weinberg


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
rochiora@cms.hhs.gov
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF MEDICAID PAYMENTS
  FOR DECEASED RECIPIENTS
       IN NEW MEXICO




                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-06-10-00093
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. In New Mexico, the
Human Services Department’s Medical Assistance Division (the State agency) administers the
program.

Federal regulations state that an overpayment is the amount that a Medicaid agency paid to a
provider in excess of the amount allowable for furnished services. Medically necessary services
could not be furnished to a deceased recipient. Accordingly, payments for claims that followed a
Medicaid recipient’s date of death are overpayments.

The Social Security Administration (SSA) maintains comprehensive death records by purchasing
death certificate information. This information can be purchased by State and Federal agencies
to assist in preventing payments for claims following Medicaid recipients’ dates of death.

The New Mexico Department of Health, Bureau of Vital Records & Health Statistics (Vital
Records) registers births and deaths that occur in New Mexico. The State agency obtains death
information from Vital Records each month to identify recipients who have died, update its
Medicaid eligibility file, and review claims to identify and recover Medicaid payments for claims
that followed recipients’ dates of death. The claim reviews include capitation and fee-for-service
payments. Capitation payments are made to managed care organizations for the provision of
medical services, whether or not the services are rendered and without regard to the number of
services rendered during the payment period. Fee-for-service payments are made to providers
for specific services claimed to have been rendered.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments for calendar
year (CY) 2007 capitation and fee-for-service claims that followed recipients’ dates of death.

SUMMARY OF FINDINGS

The State agency made Medicaid payments for capitation and fee-for-service claims that
followed recipients’ dates of death. Of the 2,122 claims we reviewed, the State agency paid
$948,554 for 1,882 claims that were appropriate or identified as overpayments and the funds
recovered. Of the remaining 240 claims, the State agency paid a total of $23,708 ($16,966
Federal share) for 53 claims for 11 deceased Medicaid recipients. We were not able to determine
the death status of 18 recipients who had 187 claims totaling $105,229.

Although the State agency had controls in place to identify and recover payments for claims that
followed recipients’ deaths, it was not successful in identifying all potential overpayments
because the death information in the Medicaid eligibility file was incorrect or not complete.
Specifically, the file Vital Records shares with the State agency did not include death



                                                i
information for individuals who died in other States. Additionally, if a recipient’s Social
Security number or date of birth was not the same in both the Medicaid eligibility file and the
Vital Records death file, the State agency’s monthly reviews did not identify recipients who had
died.

RECOMMENDATIONS

We recommend that the State agency:

    •   review the adequacy of the 53 claims totaling $23,708 ($16,966 Federal share) and, for
        those determined to be erroneous, recover the payments and refund the Federal share to
        the Medicaid program;

    •   review claims before and after CY 2007 for additional payments for the 11 recipients;

    •   work with SSA to determine whether the 18 recipients whose status could not be verified
        are deceased and refund to Medicaid any overpayments;

    •   work with Vital Records to expand the scope of death information shared with the State
        agency to include known deaths in other States; and

    •   expand manual reviews for cases in which a recipient’s Social Security number or date
        of birth in Vital Records’ information is different from the State agency’s information to
        ensure accurate recording of death information.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations and said
that it is in the process of implementing them. Regarding the third recommendation, the State
agency said that it contacted managed care organizations, family members, and in one case the
recipient to determine the status of the 18 recipients whose status could not be verified through
the Vital Records death file. The State agency said that the review confirmed that 15 of the 18
recipients were deceased. Of the 15 deceased recipients, 13 were managed care recipients with
296 claims totaling $150,174, which could potentially be recouped. The State agency’s
comments are included in their entirety as the Appendix.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION......................................................................................................................1

     BACKGROUND ...................................................................................................................1
       The Medicaid Program ....................................................................................................1
       Medicaid Payments for Deceased Recipients ..................................................................1
       Social Security Administration and State Agency Death Information ............................1

     OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................………...2
       Objective ..........................................................................................................................2
       Scope ................................................................................................................................2
       Methodology ....................................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

     FEDERAL REGULATIONS.................................................................................................3

     RESULTS OF REVIEW........................................................................................................3

     CAUSES OF OVERPAYMENTS .........................................................................................4

     RECOMMENDATIONS .......................................................................................................4

     STATE AGENCY COMMENTS ..........................................................................................5

APPENDIX

     STATE AGENCY COMMENTS




                                                                      iii
                                      INTRODUCTION

BACKGROUND

The Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services
Department’s Medical Assistance Division (the State agency) administers the program.

Medicaid Payments for Deceased Recipients

Federal regulations (42 CFR § 433.304) state that an overpayment is the amount that a Medicaid
agency paid to a provider in excess of the amount allowable for furnished services. Medically
necessary services could not be furnished to a deceased recipient. Accordingly, payments for
claims that followed a Medicaid recipient’s date of death are overpayments.

Social Security Administration and State Agency Death Information

The Social Security Administration (SSA) maintains comprehensive death records by purchasing
death certificate information from State Governments and obtaining death notifications from
funeral homes and friends and family of the deceased. All reported deaths of people who have
Social Security numbers are routinely added to SSA’s Death Master File. This information can
be purchased by State and Federal agencies to assist in preventing payments for claims following
Medicaid recipients’ dates of death.

The New Mexico Department of Health, Bureau of Vital Records & Health Statistics (Vital
Records) registers births and deaths that occur in New Mexico. The State agency obtains death
information from Vital Records each month to identify recipients who have died, update its
Medicaid eligibility file, and review claims to identify and recover Medicaid payments for claims
that followed recipients’ dates of death. The claim reviews include capitation and fee-for-service
payments. Capitation payments are made to managed care organizations for the provision of
medical services, whether or not the services are rendered and without regard to the number of
services rendered during the payment period. Fee-for-service payments are made to providers
for specific services claimed to have been rendered.

Three offices within the State agency work together to identify and recover Medicaid
overpayments. The Program Information Bureau (PIB) compares Vital Records’ data file with
the Medicaid eligibility file to determine whether Medicaid recipients have died. PIB then cross-
references the identified deceased Medicaid recipients with paid claims to determine whether
payments were made after the recipients’ dates of death. PIB shares the results with two other



                                                1
State agency offices for further review and final determination: the Contract Administration
Bureau Financial Unit (capitation payments) and the Quality Assurance Bureau (fee-for-service
payments). For claims that the two offices determine to be overpayments, PIB directs the State
agency’s fiscal agent to recoup the funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments for calendar
year (CY) 2007 capitation and fee-for-service claims that followed recipients’ dates of death.

Scope

In CY 2007, the State agency processed more than 8 million Medicaid claims totaling over $2
billion. To identify potentially deceased recipients, we selected New Mexico Medicaid
recipients who were listed in the SSA Death Master File as deceased as of December 31, 2007,
and who had payments made on their behalf for CY 2007 claims. We identified 2,122 claims
totaling $1,077,491 for 517 recipients.

We compared the dates of death noted in the New Mexico Medicaid eligibility file to SSA’s
dates of death to confirm whether the recipients were deceased. If the dates of death that were
listed in the eligibility file were the same as the dates in SSA’s file, then we accepted the SSA
dates as accurate and determined whether the State agency had already recovered the amounts
paid. If a date of death that was listed in the eligibility file was different from the date in the
SSA’s file or not in the eligibility file at all, we requested and reviewed supporting
documentation from Vital Records, such as a death certificate, to determine whether the date in
SSA’s file was correct. If we were unable to obtain evidence proving a recipient’s death, then
we set aside the claim(s).

We did not review the overall internal control structure of the State Medicaid program. We
limited our internal control review to obtaining an understanding of the State agency’s
procedures to identify payments following recipients’ dates of death and to recover the
overpayments.

We conducted fieldwork at the State agency in Santa Fe, New Mexico, in July 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicaid laws and regulations;

   •    reviewed the State agency’s policies and procedures related to identifying deceased
        recipients and recovering overpayments;




                                                  2
   •   identified individuals in the New Mexico Medicaid eligibility file and the SSA Death
       Master File that had the same Social Security number and date of birth or the same Social
       Security number, last name, and date of death to identify potentially deceased New
       Mexico Medicaid recipients;

   •   limited the universe to those recipients who had CY 2007 paid claims after their dates of
       death;

   •   compared SSA death information to State agency or Vital Records data to determine
       whether the SSA date of death was accurate for each recipient;

   •   determined whether the State agency had identified and recovered overpayments or
       whether the payments remained outstanding; and

   •   coordinated our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency made Medicaid payments for capitation and fee-for-service claims that
followed recipients’ dates of death. Of the 2,122 claims we reviewed, the State agency paid
$948,554 for 1,882 claims that were appropriate or identified as overpayments and the funds
recovered. Of the remaining 240 claims, the State agency paid a total of $23,708 ($16,966
Federal share) for 53 claims for 11 deceased Medicaid recipients. We were not able to determine
the death status of 18 recipients who had 187 claims totaling $105,229.

FEDERAL REGULATIONS

Federal regulations (42 CFR § 433.304) state that an overpayment is the amount that a Medicaid
agency paid to a provider in excess of the amount allowable for furnished services.

RESULTS OF REVIEW

In CY 2007, the State agency paid a total of $1,077,491 for 2,122 claims for 517 recipients
whose dates of death were reported as having occurred as of December 31, 2007.

Of the 2,122 claims, 1,882 claims totaling $948,554 were appropriate or identified through the
State agency’s monthly reviews and recovered. Of the remaining 240 claims:

   •   The State agency did not identify and recover payments for 53 claims totaling $23,708
       ($16,966 Federal share) for 11 recipients.


                                                3
        o For 38 claims for 6 recipients, although Vital Records had death certificates that
          matched SSA dates of death, the State agency either did not have the dates of death
          or, in one case, had an incorrect date of death. In one case, the recipient died in July
          2006; however, the State agency continued to make capitation payments for each
          month in CY 2007, totaling $17,844.

        o For 13 claims for 3 recipients, although Vital Records knew that the recipients had
          died in another State, it did not share the information with the State agency.
          Although Vital Records did not receive notification of the deaths until 2009, the State
          agency could have recovered the payments if it had been made aware of the deaths.

        o For the remaining 2 claims for 2 recipients, the State agency had the correct dates of
          death but did not identify the claims during its monthly reviews and recover the
          overpayments.

   •    We were not able to determine whether the remaining 187 claims totaling $105,229 for
        18 recipients were appropriate because we could not verify whether the recipients were
        deceased. We could not verify the deaths because the Vital Records office did not have
        any information on them.

CAUSES OF OVERPAYMENTS

Although the State agency had controls in place to identify and recover payments for claims that
followed recipients’ deaths, it was not successful in identifying all potential overpayments
because the death information in the Medicaid eligibility file was incorrect or not complete.

In addition, the file Vital Records shares with the State agency did not include death information
for individuals who died in another state. Also, if a recipient’s Social Security number or date of
birth was not the same in both the Medicaid eligibility file and the Vital Records death file, the
monthly reviews did not identify recipients who had died. PIB officials stated that PIB had
recently implemented a process to manually review those cases to ensure accurate recording of
death information. We were not able to determine why PIB did not identify overpayments for
recipients who had a correct date of death in the Medicaid eligibility file.

RECOMMENDATIONS

We recommend that the State agency:

    •   review the adequacy of the 53 claims totaling $23,708 ($16,966 Federal share) and, for
        those determined to be erroneous, recover the payments and refund the Federal share to
        the Medicaid program;

    •   review claims before and after CY 2007 for additional payments for the 11 recipients;

    •   work with SSA to determine whether the 18 recipients whose status could not be verified
        are deceased and refund to Medicaid any overpayments;


                                                 4
    •   work with Vital Records to expand the scope of death information shared with the State
        agency to include known deaths in other States; and

    •   expand manual reviews for cases in which a recipient’s Social Security number or date
        of birth in Vital Records’ information is different from the State agency’s information to
        ensure accurate recording of death information.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations and said
that it is in the process of implementing them. Regarding the third recommendation, the State
agency said that it contacted managed care organizations, family members, and in one case the
recipient to determine the status of the 18 recipients whose status could not be verified through
the Vital Records death file. The State agency said that the review confirmed that 15 of the 18
recipients were deceased. Of the 15 deceased recipients, 13 were managed care recipients with
296 claims totaling $150,174, which could potentially be recouped. The State agency’s
comments are included in their entirety as the Appendix.




                                                5
APPENDIX
                                  Page 1 of 4


APPENDIX: STATE AGENCY COMMENTS
Page 2 of 4
Page 3 of 4
Page 4 of 4
